ELECTRONICALLY FILED
Jefferson County Circuit Court
Lafayette L. Woods, Circuit Clerk

2020-Mar-12 13:12:53
35CV-20-83
C11WD05:2 Pages

IN THE CIRCUIT COURT OF JEFFERSON COUNTY, ARKANSAS
ELEVENTH JUDICIAL DISTRICT, WEST - FIFTH DIVISION
BILLY WOLFE
Inmate # 133796
v.
No. 35CV-20-83-5
DEXTER PAYNE, DIRECTOR
ARKANSAS DEPARTMENT OF CORRECTION

PETITIONER

RESPONDENT

ORDER DISMISSING PETITION FOR WRIT OF HABEAS CORPUS
On this day comes on for consideration the petition for writ of habeas corpus filed on January
23, 2020. From the examination of the pleadings and review of applicable law, the Court finds as
follows:
On July 5, 2005, petitioner entered a negotiated plea of guilty to capital murder and was
sentenced to life without parole in the Arkansas Department of Correction. Petitioner claims that his
conviction should be declared void because the trial court did not have jurisdiction over him because
he is a Cherokee Indian; any actions by law enforcement or evidence collected from the Cherokee
Indian reservation were illegal for lack of jurisdiction, and his attorney was ineffective. None of
petitioner’s claims are cognizable in a habeas matter.

The petitioner should have addressed these

allegations at the trial court level, on direct appeal, or in a timely post-conviction proceeding.
The petition is DENIED and DISMISSED.
IT IS SO ORDERED this 12th day of March 2020.

JODI RAINES DENNIS
CIRCUIT JUDGE
cc:

Billy Wolfe
ADC#133798 OK#404414
JCCC Unit 6-N
216 N. Murray Street
Helena, OK 73741

Cite as 2021 Ark. 87

SUPREME COURT OF ARKANSAS
No. CV-20-420
Opinion Delivered: April 22, 2021
BILLY WOLFE
APPELLANT
V.
DEXTER PAYNE, DIRECTOR,
ARKANSAS DEPARTMENT OF
CORRECTION
APPELLEE

PRO SE APPEAL FROM THE
JEFFERSON COUNTY CIRCUIT
COURT
[NO. 35CV-20-83]
HONORABLE JODI RAINES
DENNIS, JUDGE
AFFIRMED.

JOHN DAN KEMP, Chief Justice
Appellant Billy Wolfe appeals from the denial of his pro se petition for writ of habeas
corpus filed pursuant to Arkansas Code Annotated section 16-112-101 (Repl. 2016).
Because Wolfe has failed to demonstrate entitlement to issuance of the writ, we affirm the
circuit court’s order.
I. Facts
In 2005, Wolfe pleaded guilty in the Benton County Circuit Court to capital murder
and kidnapping and was sentenced to life imprisonment without parole. At the time of his
arrest, Wolfe was a member of the Cherokee Nation and resided within the boundaries of
the Cherokee Nation s territory m Oklahoma. The offenses for which he was arrested were
committed in Benton County, Arkansas, and law enforcement officers from the State of
Oklahoma arrested Wolfe, searched his home, and seized his truck. Wolfe was transferred
to Arkansas where he pleaded guilty in exchange for waiver of the death penalty.

On January 23, 2020, Wolfe filed his petition for writ of habeas corpus in the
Jefferson County Circuit Court.1 He alleged that the trial court lacked jurisdiction to convict
him, that he was searched illegally and arrested illegally, that his guilty plea was not
knowingly entered, and that his trial counsel was ineffective. The circuit court denied and
dismissed the petition because Wolfe’s claims were not cognizable in habeas proceedings.
II. Grounds for Issuance of the Writ
A writ of habeas corpus is proper when a judgment and commitment order is invalid
on its face or when a trial court lacked jurisdiction over the cause. Foreman v. State, 2019
Ark. 108, 571 S.W.3d 484. Jurisdiction is the power of the court to hear and determine the
subject matter in controversy. Baker v. Norris, 369 Ark. 405, 255 S.W.3d 466 (2007). When
the trial court has personal jurisdiction over the appellant and also has jurisdiction over the
subject matter, the court has authority to render the judgment. Johnson v. State, 298 Ark.
479, 769 S.W.2d 3 (1989).
A petitioner who files a writ and does not allege his or her actual innocence and
proceed under Act 1780 of 2001, codified at Arkansas Code Annotated sections 16-112201 to -208 (Repl. 2016), must plead either the facial invalidity of the judgment or the lack
of jurisdiction by the trial court and make a showing by affidavit or other evidence of
probable cause to believe that he or she is being illegally detained. Ark. Code Ann. § 16112-103(a)(1) (Repl. 2016). Proceedings for the writ are not intended to require an

’Wolfe is currently incarcerated in Oklahoma and was transferred there by the
Arkansas Department of Correction (ADC) pursuant to the Interstate Corrections Compact
(ICC). Wolfe properly filed his habeas petition in the county where the ADC is located.
See Hundley v. Hobbs, 2015 Ark. 70, 456 S.W.3d 755.
2

extensive review of the record of the trial proceedings, and the circuit court’s inquiry into
the validity of the judgment is limited to the face of the commitment order. McArthur v.
State, 2019 Ark. 220, 577 S.W.3d 385. Unless the petitioner can show that the trial court
lacked jurisdiction or that the commitment order was invalid on its face, there is no basis
for a finding that a writ of habeas corpus should issue. Fields v. Hobbs, 2013 Ark. 416.
III. Standard of Review
A circuit court’s decision on a petition for writ of habeas corpus will be upheld unless
it is clearly erroneous. Hobbs v. Gordon, 2014 Ark. 225, 434 S.W.3d 364. A decision is clearly
erroneous when, although there is evidence to support it, the appellate court, after reviewing
the entire evidence, is left with the definite and firm conviction that a mistake has been
made. Id.
IV. Claims for Relief
Wolfe first contends that the State of Arkansas lacked jurisdiction to convict him
because he is a member of the Cherokee Nation and resided within Cherokee Nation
territory when the crimes were committed. Wolfe contends that because he as a member of
the Cherokee Nation, he was not subject to prosecution by the State of Arkansas but that
jurisdiction lay with the federal courts. In support of this allegation, Wolfe relies on treaties
between the United States and the Cherokee Nation and holdings by the United States
Supreme Court, specifically its recent holding in McGirt v. Oklahoma,___ U.S.____, 140 S.
Ct. 2452 (2020). The Court in McGirt held that “ [s] tate courts generally have no jurisdiction
to try Indians for conduct committed in ‘Indian country.’” Id. at___ , 140 S. Ct. at 2459
(citing Negonsott v. Samuels, 507 U.S. 99 (1993)); see also United States v. Burch, 169 F.3d

3

*

666, 669 (10th Cir. 1999) (explaining that the Indian Major Crimes Act was enacted in
1885 to establish exclusive federal jurisdiction over certain enumerated felonies committed
by “[a]ny Indian . . . against the person or property of another Indian or other p erson . .
within the Indian country”). Congress has defined “Indian country” to include “all land
within the limits of any Indian reservation . . . notwithstanding the issuance of any patent,
and, including any rights-of-way running through the reservation.” McGirt,

U.S. at

-----, 1^10 S. Ct. at 2464 (quoting 18 U.S.C. § 1151(a)). However, it is also well established
that States have criminal jurisdiction over reservation Indians for crimes committed . . . off
the reservation.” Nevada v. Hicks, 533 U.S. 353, 362 (2001).
Wolfe does not contend that the crimes were committed within the boundaries of
the Cherokee Nation, nor does he dispute that the crimes were committed in Benton
County, Arkansas. A circuit court has subject-matterjurisdiction to hear and determine cases
involving violations of criminal statutes. Love v. Kelley, 2018 Ark. 206, 548 S.W.3d 145.
Moreover, a circuit court has personal jurisdiction over offenses committed within the
county over which it presides. Anderson v. Kelley, 2020 Ark. 197, 600 S.W.3d 544. Thus,
Wolfe’s jurisdictional challenge fails.
Wolfe next argues that Oklahoma law enforcement officers entered the Cherokee
Nation without authority and therefore illegally arrested him, searched his home, and seized
his property. It is well settled that a plea of guilty that was not coerced or obtained under
duress, waives defenses—such as a challenge to an illegal search—that might have been
interposed at trial. Cox v. State, 255 Ark. 204, 499 S.W.2d 630 (1973). Accordingly, factual
questions on the admissibility of evidence that could have been raised and addressed at trial

4

are not cognizable in habeas proceedings. Douthitt v. Kelley, 2019 Ark. 404, 590 S.W.3d
734. Furthermore, an illegal arrest, in itself, does not void a subsequent conviction. Lewis v.
Payne, 2020 Ark. 345 (citing Winston v. State, 355 Ark. 11, 131 S.W.3d 333 (2003)). The
circuit court s jurisdiction to try the accused does not depend on the legality of the arrest,
and questions pertaining to whether there was some error in the investigation, arrest, or
prosecution of a criminal offense are not within the purview of a habeas corpus proceeding
unless the error impinges on the jurisdiction of the circuit court to enter the judgment or
on the facial validity of the judgment. Lewis, 2020 Ark. 345.
For his third claim for habeas relief, Wolfe alleges that his plea was not knowingly
and intelligently entered because he agreed to plead guilty on the basis that he would be
sentenced to life with the possibility of parole but was instead sentenced to life without
parole. In short, Wolfe claims that his guilty plea was not voluntary. When a defendant
enters a plea of guilty, the plea is his trial. Trammel v. Kelley, 2020 Ark. 342, 610 S.W.3d
158. A habeas corpus proceeding does not allow a prisoner to retry his case. Id., 610 S.W.3d
158. Claims of an involuntary plea or of improper plea procedures do not raise a question
of a void or illegal sentence that may be addressed m a habeas proceeding. Id., 610 S.W.3d
158.
For his final claim, Wolfe asserts that his trial counsel was ineffective. Defendants
should raise allegations of ineffective assistance of counsel in a timely filed petition under
Arkansas Rule of Criminal Procedure 37.1 (2019). Millsap v. Payne, 2020 Ark. 401, 611
S.W.3d 479. A habeas proceeding does not replace the timely fifing of a Rule 37.1 petition.
Id. Accordingly, claims of ineffective assistance of counsel are not within the purview of a

5

\i'<*

proceeding for a writ'of "habeas corpus. Hall v. State, 2T)2D_Ark. 358. The circuit court did
not clearly err when it denied and dismissed Wolfe’s habeas petition.

Affirmed.
WEBB,J., dissents.
Barbara W. Webb, Justice, dissenting. In our role as an appellate, court, the
question before us is not whether Mr. Wolfe is entitled to habeas relief but whether the
circuit court clearly exxed in disposing of Mr. \X7o lie’s habeas petition. In my view, the
circuit court clearly erred, and this case must be reversed and remanded to the circuit court.
In its order dismissing Mr. Wolfe’s habeas petition, the circuit court summarizes the
grounds Mr. Wolfe asserted as “the trial court did not have jurisdiction over him because

'

he is a Cherokee Indian; any actions by law enforcement or evidence collected from the
Cherokee Indian reservation were illegal for lack of jurisdiction, and his attorney was
ineffective.” However, rather than addressing those grounds, the circuit court summarilydismissed Wolfe’s petition, stating, “None of petitioner’s claims are cognizable in a habeasmatter. The petitioner should have addressed these allegations at the trial court level, on
direct appeal, or in a timely post-conviction proceeding.” (Emphasis supplied.)
In its opinion, the majority recites that “[a] writ of habeas corpus is proper when . .
. a trial court lacked jurisdiction over the cause. Jurisdiction is the power of the court to
hear and determine the subject matter in controversy. When the trial court has personal
jurisdiction over the appellant and also has jurisdiction over the subject matter, the court
has authority to render the judgment.” (Citations omitted.) Mr. Wolfe’s habeas petition
direcdy challenges the jurisdiction of the trial court to try his capital-murder case.

6

; X VVirt.

